September 30, 2009

PRITHA N. MEHRA
VICE PRESIDENT, BUSINESS MAIL ENTRY AND PAYMENT TECHNOLOGIES

JOHN T. EDGAR
VICE PRESIDENT, INFORMATION TECHNOLOGY SOLUTIONS

JAMES R. POLAND
MANAGER, STATISTICAL PROGRAMS

SUBJECT: Audit Report – Controls Over the Bulk Mail Revenue, Pieces, and Weight
         System (Report Number CRR-AR-09-007)

This report presents the results of our self-initiated audit of the Bulk Mail Revenue,
Pieces, and Weight (BRPW) system (Project Number 09RG003CRR000). The
objective of our review was to determine whether controls over the BRPW estimation
process were adequate. The Postal Accountability and Enhancement Act of 2006 (the
Act) requires the U.S. Postal Service Office of Inspector General (OIG) to regularly audit
the data collection systems and procedures the U.S. Postal Service uses to prepare its
reports analyzing costs, revenues, rates, and quality of service for the Postal Regulatory
Commission (PRC). This audit addresses both strategic and financial risk. See
Appendix A for additional information about this audit.

Conclusion

Controls over the BRPW estimation process were generally adequate. Specifically, the
program code used for processing BRPW data contains adequate edit controls.
Revenue and Volume Reporting office personnel review processing logs, take
necessary corrective action, and back up the program code and data. Further, they
evaluate the reliability of calculated values by determining statistical measures and
variances.

Our tests indicated that the software programs for extraction and accumulation of
BRPW data function as intended. However, improvements are needed for developing
and approving rate table codes;1 and documenting, reviewing, and changing the
database extract and statistical program code. Additionally, management can

1
 The Postal Service uses Volume Information Profile (VIP) codes in rate tables to map the revenue, volume, and
weight data to individual rate categories as defined by the line items found on the postage statements for manual and
automated post offices.
Controls Over the Bulk Mail Revenue,                                  CRR-AR-09-007
 Pieces, and Weight System


strengthen controls over the manual postage statement data input process by
establishing a formal contract with the vendor inputting the data, and through better
communication with post offices.

While we did not identify inaccuracies in the rates, implementing these improvements
will assist in maintaining the integrity of the BRPW estimation process.

Rate Table Code Development and Maintenance

Although we did not find inaccurate assignment of rate table codes to rate categories,
we found the Postal Service does not follow required change management procedures
or best practices when creating or modifying rate table codes. Specifically:

       An established numbering scheme is not always used to develop and maintain
        rate table codes.
       Different administrators create rate table codes that deviate from the established
        numbering scheme, in order to meet business needs.
       The primary user conveys change requests informally to system programmers
        via electronic mail rather than using formal change management procedures.

Management did not require administrators to follow the established numbering scheme
or update the specification document. Additionally, the system sponsor did not require
employees to follow formal change management procedures for making changes to rate
table codes. Implementing these controls could improve system utility, continuity, and
ensure that code changes are valid and properly tested. See Appendix B for our
detailed analysis of this topic.

We recommend the Manager, Statistical Programs, direct the Manager, Revenue and
Volume Reporting, to:

1. Update the existing rate table code numbering scheme as needed to reflect current
   business needs.

2. Update the rate table code specification document as necessary.

We recommend the Vice President, Business Mail Entry and Payment Technologies,
work with the Manager, Statistical Programs, and the Manager, Corporate Information
Technology, to:

3. Ensure that new or modified rate table codes are documented, submitted, and
   approved in accordance with established PostalOne! ® change management
   procedures.




                                             2
Controls Over the Bulk Mail Revenue,                                CRR-AR-09-007
 Pieces, and Weight System


PostalOne! Extract File Program Code

The program code for preparing the PostalOne! extract file contains obsolete business
rules. This occurred because the Postal Service did not develop and document proper
requirements for the data extraction process or conduct an evaluation of the program
code following migration of the Permit System to PostalOne!. Additionally, the
PostalOne! data dictionary does not include a complete description of all BRPW data
variables. Removing non-functional code could simplify program maintenance and an
updated data dictionary would assist users in correctly extracting data. See Appendix B
for our detailed analysis of this topic.

We recommend the Manager, Statistical Programs; the Vice President, Business Mail
Entry and Payment Technologies; and the Manager, Corporate Information Technology,
coordinate to:

4. Develop requirements documentation for the PostalOne! data extraction file process.

We recommend the Manager, Corporate Information Technology, direct the Manager,
Information Platform Sales and Marketing, to:

5. Review the PostalOne! data extraction program and update it as required.

6. Update the PostalOne! data dictionary to include descriptions for all variables used
   by the PostalOne! data extraction program.

Statistical Program Code

Multiple edit checks incorporated in the SAS® programs help ensure proper BRPW
estimation. However, some portions of the SAS program code were hard-coded rather
than using the best practice of macro variables, and some code may be obsolete.
Additionally, the program code does not contain sufficient commentary documentation.
Applying best practices for proper code development, maintenance, and review can
reduce the likelihood of inadvertent programming errors and calculations. See
Appendix B for our detailed analysis of this topic.

We recommend the Manager, Statistical Programs, direct the Manager, Revenue and
Volume Reporting, to:

7. Conduct a detailed review of the SAS program code, delete obsolete code,
   implement changes such as increased use of macro variables to enhance the code
   as warranted, and provide sufficient comments throughout the code.




                                            3
Controls Over the Bulk Mail Revenue,                                    CRR-AR-09-007
 Pieces, and Weight System


Manual Postage Statements

Management needs to improve controls over the submission and processing of manual
postage statements. Specifically:

       Non-automated post offices did not always submit their postage statements to
        the Revenue and Volume Reporting Office in a timely manner. Fifty of 87 post
        offices did not submit one or more of their postage statements during the period
        October 2008 through January 2009. This occurred because management has
        not placed emphasis on the need for the post offices to timely submit the postage
        statements. Continued emphasis on this could reduce the need for statistical
        adjustments to account for missing postage statement data.

       The vendor hired to perform data entry from hard-copy postage statements
        operates without a formal contract and the required security clearances, non-
        disclosure agreements, and a site risk assessment were not performed. This
        occurred because the Revenue and Volume Reporting Office was under time
        constraints to initiate data entry capabilities. As a result, the Postal Service’s
        interests are not adequately protected, which could negatively affect the Postal
        Service’s brand.

       The Revenue and Volume Reporting Office does not reconcile the postage
        statements received with the related vendor invoices to determine whether the
        vendor processed all statements. The Revenue and Volume Reporting Office
        relied on tests of reasonableness based on past monthly averages to authorize
        payments to the vendor. Strengthening vendor invoice certification procedures
        will ensure the Postal Service pays only for services rendered and includes all
        submitted postage statements in the non-automated monthly population.

See Appendix B for our detailed analysis of this topic.

We recommend the Manager, Statistical Programs, direct the Manager, Revenue and
Volume Reporting, to:

8. Communicate to the designated non-automated post offices on a recurring basis
   their responsibility to submit postage statements to the Revenue and Volume
   Reporting Office each month.

9. Initiate a written contract for data entry services, initiate security clearance
   processes, complete non-disclosure agreements, and perform a site risk
   assessment.

10. Develop and implement an effective method for certifying vendor invoices for data
    entry services.




                                              4
Controls Over the Bulk Mail Revenue,                               CRR-AR-09-007
 Pieces, and Weight System


Management’s Comments

Management agreed with the findings and recommendations in the report. See
Appendix D for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations in the
report and management’s actions should resolve the issues identified in the report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Paul Kuennen, Director, Cost,
Revenue and Rates, or me at (703) 248-2100.


      E-Signed by Darrell E. Benjamin, Jr
      VERIFY authenticity with ApproveIt

Darrell Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems

Attachment

cc:       William Ashley Lyons
          Robert E. Dixon Jr.
          Bradley V. Pafford
          Carla R. Siniscalchi
          Bill Harris




                                            5
Controls Over the Bulk Mail Revenue,                                    CRR-AR-09-007
 Pieces, and Weight System


                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The BRPW system provides estimates of revenue, pieces, and weight totals for bulk
mail categories. In fiscal year 2008, domestic bulk mail generated revenue of
approximately $43.7 billion. $43.2 billion (99 percent) was generated from Postal
Service field locations with access to PostalOne!, a national automated bulk mail
acceptance and financial reporting system. The remaining $47.5 million (1 percent) was
generated from non-automated offices.

The BRPW input data consists of postage statement transaction information aggregated
at the finance number level by rate table code (VIP code). The PostalOne! performs
this aggregation for all automated postage statements while a SAS program performs
this function for all non-automated data.

The Revenue and Volume Reporting Office within Statistical Programs at Postal Service
Headquarters is the executive sponsor and primary user of the BRPW system. This
office is the data steward of the rate table codes and they create the codes maintained
in PostalOne!. The Vice President, Business Mail Entry and Payment Technologies, is
the executive sponsor of PostalOne!. Postal Service policy2 requires users to document
change requests and enter the request into a formal change management system. The
executive sponsor will then make a change request to the Change Control Board. The
executive sponsor is responsible for defining the business requirements, securing
funding, and communicating the change impact to the affected business organizations.
The Change Control Board and the executive sponsor review and approve/disapprove
implementation of the change.

Revenue and Volume Reporting Office personnel maintain five SAS programs that
validate data from PostalOne! and non-automated post offices. These programs are
used to prepare the BRPW estimates, as follows:

      1. The first program performs the initial data validation and assignment of rate table
         codes for non-automated post office data.

      2. The next three programs, which comprise the BRPW processing cycle:

           a. Collect the current period’s postage statement data extracted from
              PostalOne! and from the supplemental panel of non-automated offices;
           b. Perform data verification checks on the source data; and
           c. Inflate the output from the previous step by using office and stratum-based
              blowups and national trial balance factors.


2
    Change Management Policy, version 1.2, April 20, 2009.




                                                             6
Controls Over the Bulk Mail Revenue,                                                    CRR-AR-09-007
 Pieces, and Weight System


    3. The fifth program calculates estimates of the sampling variances and coefficient
       of variation for determining estimates of statistical reliability factors.

A sample of non-automated post offices provides approximately 1 percent of bulk mail
data for the BRPW estimation process. Each month, these post offices provide hard
copy postage statements to the Revenue and Volume Reporting Office, which then
forwards the statements to a vendor for data entry. On July 7, 2009, the Postal Service
filed a request with the PRC to use PostalOne! data to estimate the bulk mail revenue,
pieces, and weights for non-automated post offices. Management expects the panel of
sample post offices to become obsolete in FY 2010 if the PRC approves the request.
This will reduce the need for third-party data input services.

The BRPW provides data to the Revenue, Pieces, and Weight Adjustment System
(ARPW)3 which it uses to prepare monthly, quarterly, and annual Revenue, Pieces and
Weight (RPW) Reports for the PRC. Annual reports prepared using ARPW system
outputs include the RPW Report, the Cost and Revenue Analysis report, and the Postal
Service’s Annual Report. The PRC uses revenue, pieces, and weight information in
evaluating the Postal Service’s compliance with pricing policies prescribed by the Act.

See Appendix C for the BRPW process flow.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether controls over the BRPW estimation process
were adequate. We reviewed Postal Service policies and procedures, best practices,
BRPW rate tables, price list, and other documentation applicable to our audit objective.
We interviewed key personnel from the Revenue and Volume Reporting Office and
reviewed documentation and electronic postage statement data files as needed.

We used a contractor to determine whether the SAS programs used in BRPW
estimation adequately function to detect inaccurate, incomplete, and invalid BRPW data
results and whether the code was properly documented. We evaluated the contractor’s
findings to reach our conclusions regarding the SAS programs.

To determine the adequacy of the controls over the BRPW data extract process, we
performed a site visit to the San Mateo, Integrated Business Systems Solutions Center
and met with the PostalOne! managers, administrators, programmers, and analysts.
During that time, we reviewed and discussed select portions of the code and gained an
understanding of the process.

To determine the adequacy of the controls over the manual BRPW process, we
interviewed the vendor who performs data entry of postage statement data; and

3
 Other systems that provide input into the ARPW include the following: Origin-Destination Information System and
Revenue, Pieces, and Weight; System for International Revenue and Volume-Outbound; General Ledger System;
and Point-of-Service.




                                                        7
Controls Over the Bulk Mail Revenue,                                                  CRR-AR-09-007
 Pieces, and Weight System


obtained and reviewed invoices, payment documentation, postage statements,
delinquent postage statements logs, and a BRPW data file the vendor prepared. We
also performed a preliminary review of the data file and compared it with the
corresponding hard copy postage statements.

We conducted this performance audit from October 20084 through September 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We used manual and
automated processes to assess the reliability of computer-generated data used for our
analysis and concluded the data used were sufficient to support the audit objective. We
discussed our observations and conclusions with management officials on
September 3, 2009, and included their comments where appropriate.

PRIOR AUDIT COVERAGE

There were no prior audits of the BRPW system.




4
 We suspended this audit in October 2008 and re-opened it in January 2009 because the Postal Service requested a
delay while they prepared to meet Postal Accountability Enhancement Act data requirements.




                                                       8
Controls Over the Bulk Mail Revenue,                                  CRR-AR-09-007
 Pieces, and Weight System


                             APPENDIX B: DETAILED ANALYSIS

Rate Table Code Development and Maintenance

The Postal Service does not follow required change management procedures or best
practices when creating or modifying rate table codes. While we did not identify
inaccuracies in the rate table codes, implementing these controls could improve system
utility, continuity, and ensure that code changes are valid and properly tested.

Rate Table Code Numbering Scheme

The Revenue and Volume Reporting Office develops rate table codes by ensuring each
code is unique to a line item on a postage statement; however they are unable to follow
the existing numbering scheme as it is outdated. Following enactment of the Act, a
change to PostalOne! expanded the length of the rate table code from five to 15
characters, in order to allow flexibility in assigning codes. Administrators created nearly
3,000 new rate table codes to meet specific business needs. While the initial
numbering scheme used numeric codes, the current codes include both numeric and
alphanumeric characters. Adherence to a systematic rate table code numbering
scheme could also allow users to query the data more effectively. Additionally, updating
the rate table code specification document to reflect current business needs could assist
in system maintenance and reduce the potential for errors.

Change Management

The Postal Service did not formally document rate table code changes in the change
management system used for PostalOne!. The Postal Service uses TRACKERINET to
manage the developmental activities of PostalOne!. Although TRACKERINET contains
54 entries impacting rate table codes for the period October 2008 through
August 24, 2009, detailed requirements for individual code changes were not always
included in the change requests. Users in the Revenue and Volume Reporting Office
communicate the requests directly to system programmers, who initiate testing and
implementation of the changes. Using proper change management procedure provides
greater assurance that approved rate table changes are documented, tested, and
correctly included in the PostalOne!. This would also assist in maintaining stakeholder
confidence in the accuracy of BRPW estimates.

System Documentation

The Revenue and Volume Reporting Office did not maintain adequate documentation to
document rate table code changes and the related business reasons for the changes.
For example, a bulk mail product was moved from the “Not-Flat Machinable” price
category to the “Non-Automation Flats” price category; however, the rate table code
remained the same and the change was not formally documented. As the data steward
for BPRW data, the Revenue and Volume Reporting Office is responsible for




                                             9
Controls Over the Bulk Mail Revenue,                                                CRR-AR-09-007
 Pieces, and Weight System


documenting changes to the codes that might affect the way the Postal Service uses
data.5 Rate table code changes should be properly documented to ensure the changes
are valid and properly approved through the change management process.

PostalOne! Extract File Program Code

The computer program for generating an extract file from the PostalOne! database
contains obsolete business rules. System administrators use an extract program to
create the data file for input into the BRPW system. This program was developed when
management migrated the Permit system used for handling bulk mail information to
PostalOne! . The extract program contains processing logic that provides reversals and
adjustments that may have been needed during the initial years of transition, but is likely
no longer needed. This occurred because the Postal Service did not develop
requirements for the BRPW data extraction process. A detailed review of the program
code is needed to determine whether this processing logic should be deleted.

We also determined the PostalOne! data dictionary does not include a complete
description of all variables used by the extraction program. Written requirements and a
proper data dictionary help the programmer to extract data correctly from the database.

The Postal Service had not conducted an evaluation of the program code since
migration of the Permit System to PostalOne!. Without a post-implementation review,
coding problems may not be identified and improvement to the processes may be
overlooked.6 Developing requirements documentation, completing the data dictionary,
and conducting a review of the program code could enhance the integrity of the data
provided to the BRPW system.

Statistical Program Code

Obsolete Code

The Postal Service uses five SAS programs totaling more than 6,000 lines of code to
perform various functions. When programmers update the program code to meet new
business requirements, they add new lines of code but do not change or delete existing
statements written by other programmers that have become obsolete. This increases
the complexity of system testing and could lead to programming errors.

Hard-Coded Values

There are data element values hardcoded into the programs in multiple locations.
When these values change, the programmer has to manually change the value in all
applicable locations. Manually changing hard-coded values in multiple locations in

5
 Management Instruction AS 860-2003-2, Data Stewardship: Data Sharing Roles and Responsibilities, March 2003.
6
 Postal Service’s Technology Solution Life Cycle Policy – Technology Solution Release Management Process,
version 1.0.




                                                      10
Controls Over the Bulk Mail Revenue,                                                      CRR-AR-09-007
 Pieces, and Weight System


several thousand lines of code can lead to errors. Best practices use macro variables
instead of hard-coded values. A macro variable uses a literal in place of a value or a
series of commands and is normally declared at the beginning of the program. The
literal is used in the rest of the program rather than the value. Changing the macro
variable requires making only one change, normally in the beginning of the program,
and reduces the likelihood of errors.

Data Merge

One SAS program contained a procedure for merging data that could have unexpected
results if not properly utilized. The MERGE procedure in SAS must be used carefully
when multiple transactions rely upon the same key in merging datasets with an unequal
number of transactions. While we did not identify any inaccuracies during our review,
management took action to reduce the risk of potential inaccuracies when using the
MERGE procedure during our audit.

System Documentation

Documentation and comments within programs need improvement. Although
documentation describing the code exists, the code does not contain sufficient
documentation. Insufficient program comments within the program make it difficult for a
new programmer to understand the logic or make necessary updates. According to
best practices, proper maintenance includes good programming style along with
sufficient written comments that make the code readable. The Postal Service can
improve the overall program integrity of the SAS programs by conducting a program
code review and improving documentation.

Manual Postage Statements

Postage Statements

Non-automated post offices did not always submit their postage statements to the
Revenue and Volume Reporting Office in a timely manner. Fifty of 87 post offices did
not submit all required postage statements during the period October 2008 through
January 2009. Most of the responsible post office officials we spoke to informed us they
were unaware of this requirement or they are new to their positions and their
predecessors had not informed them.7 The Revenue and Volume Reporting Office
issues a memorandum occasionally to remind the post offices of their responsibility to
submit their postage statements each month. Postage statement data not included in
the non-automated population are estimated based on a factor the Revenue and
Volume Reporting Office establishes. Increased factoring decreases the effectiveness
of the BRPW estimate.


7
  The auditors contacted 12 post office officials. Seven of these informed us their predecessor had not advised them
to do so.




                                                         11
Controls Over the Bulk Mail Revenue,                                                  CRR-AR-09-007
 Pieces, and Weight System


Vendor Agreements

Management can improve controls over the manual postage statement data entry
process. Although the vendor has been providing data entry services for the Postal
Service for more than 4 years, the Revenue and Volume Reporting Office never
established a written contract with the vendor hired for these services or obtain a non-
disclosure agreement due to time constraints for needed data entry services. The
Postal Service’s guidance on professional and technical service contracts requires
clauses for non-disclosure, records ownership, and privacy protection.8 These clauses
are needed when sensitive9 business information is provided to a third party. The
information provided to the vendor includes sensitive information such as mailer name
and address, phone number, permit number, and mail volume.

Site Risk Assessment

The Postal Service did not complete a site risk assessment for the vendor’s premises.
The vendor stores the postage statement data on a compact disc for back-up and
retrieval purposes and maintains the statements on site. A site risk review must be
performed for each site hosting sensitive-enhanced, sensitive, or critical information
resources.10 As a result, the BRPW data may not be adequately protected and this
could impact the Postal Service brand.

Invoice Certification

The Revenue and Volume Reporting Office did not certify all vendor invoices received.
The office paid invoices totaling $97,292 for the 44-month period ending May 4, 2009.
When a supplier submits an invoice directly to the contracting officer or installation, the
invoice must be checked to ensure that it is complete, accurate, and that the goods or
services have been provided.11 However, the Revenue and Volume Reporting Office
did not account for all postage statement records before mailing them to the vendor;
therefore, they could not perform a proper reconciliation of the invoice amounts. The
Revenue and Volume Reporting Office relied on reasonableness based on past monthly
averages to authorize payment. Reconciling invoices with postage statements provided
to the vendor ensures that payments are provided only for services rendered.




8
  The Postal Service’s Supplying Practices and Principles – Commodity Specific Practices.
9
  PostalOne! data is classified as “sensitive but unclassified”. As a feeder system, BRPW receives the same
classification.
10
   Handbook AS-805, Information Security, section 4-5, June 2009.
11
   Management Instruction FM-610-2000-2, Compliance with the Prompt Payment Act, Receipt and Certification of
Invoices, May 7, 2000.




                                                      12
Controls Over the Bulk Mail Revenue,                   CRR-AR-09-007
 Pieces, and Weight System


                    APPENDIX C: BRPW PROCESS FLOW DIAGRAM




                                       13
Controls Over the Bulk Mail Revenue,                   CRR-AR-09-007
 Pieces, and Weight System


                       APPENDIX D: MANAGEMENT’S COMMENTS




                                       14
Controls Over the Bulk Mail Revenue,        CRR-AR-09-007
 Pieces, and Weight System




                                       15
Controls Over the Bulk Mail Revenue,        CRR-AR-09-007
 Pieces, and Weight System




                                       16
